Supreme Court, U.S.
FILED

WAIVER

DEC 1 5 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Thomas Gilewicz

20-672
v. Brylin Hospital, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
10 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Balvinder S. Kang, M.D.

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a membe
will be filed by a Bar m mber

this Court. Should a response be requested, the response

Signature
Date.

December 15, 2020

(Type or print) Name

Tomas J. Callocchia, Esq.
0 Mr.

Firm

0 Mrs.

0 Miss

Ricotta, Mattrey, Callocchia, Markel & Cassert

Address

496 Main Street

City & State
Phone

El Ms.

Buffalo, New York

(716) 854-6424

Zip
Email

14202

tjc@ricottalaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Michael James Confusione, Esq. (Hegge & Confusione, LLC)

KEVIN A. RICOTTA t
COLLEEN K. MATTREY
TOMAS J. CALLOCCHIA
KATHERINE V. MARKEL
JILL L. CASSERT *

RICOTTA, MATTREY, CALLOCCHIA,
MARKEL & CASSERT

t Also admitted to The Pennsylvania Bar
* Also admitted to The Georgia Bar

ATTORNEYS & COUNSELORS AT LAW
496 MAIN STREET
BUFFALO, NEW YORK 14202
T: (716) 854-6424
F:(716) 854-6425

BRYAN J. DANIELS
THERESA L. GAGLIONE
DEVON E. GAWLEY
MEDICAL CONSULTANTS
DIANNE M. BIONDOLILLO, R.N.
NICOLE M. GORSKI, M.H.S.

December 15, 2020

VIA FEDERAL EXPRESS
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Thomas Gilewicz v. Brylin Hospital, et al.
Supreme Court Case No. 20-672

Dear Sir or Madam:
Enclosed please find an original and two copies of a Waiver for Respondent Balvinder S.
Kang, M.D. in the above referenced matter.
Kindly file the waiver and return a filed stamped copy to us in the enclosed selfaddressed, postage-paid envelope.
Should you have any questions or concerns in the meantime, please do not hesitate to
contact our office.
Very trul v

Tomas J. Callocchia
tjc@ricottalaw.com
\j ad
Enclosure
cc: Michael James Confusione, Esq.

RECEIVED
DEC 1 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

